     COMMODITY FUTURES TRADING COMMISSION

       SEMIANNUAL REPORT
                  OF THE
..




        OFFICE OF THE
     INSPECTOR GENERAL




      FORTHE PERIOD ENDING MARCH 31,2001
                     u.s. COMMODITY FUTURES TRADING COMMISSION
                                         Three Lafayette Centre
                              1155 21st Street, NW, Washington, DC 20581
                                        Telephone: (202) 418-5110
                                        Facsimile: (202) 418-5522


                                           April 30, 2001
     OFFICE OF
INSPEClOR GENERAL



 TO:           James E. Newsome
               Acting Chairman

 FROM:         A. Roy Lavik    Q fZ <.1-
               Inspector General

 SUBJECT:      Semiannual Report of the Office of the Inspector General

        Attached is the Semiannual Report of the Office of the Inspector General for the period
 from October 1, 2000 through March 31, 2001. This report is submitted to you in accordance
 with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

        I appreciate your support of this office.

 Attachment
                 OFFICE OF THE INSPECTOR GENERAL
              COMMODITY FUTURES TRADING COMMISSION

                             SEMIANNUAL REPORT
                            FOR THE PERIOD FROM
                    October 1, 2000 THROUGH March 31, 2001

                             TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(1) and (2) of the Act)]                                        1
    AUDITS                                                                                   1
    INVESTIGATIONS                                                                           2
    ~EGIS~ATIVE AND REGU~ATORY REVIE~S                                                       2

OIG RESPONSIBI~ITIES                                                                         3

OIG RESOURCES                                                                                4

CFTC PROGRAMS AND OPERATIONS                                                                 4

COMP~ETED ~ORK                                                                               5
      AUDITS [including a list of each audit report issued and a summary of each
      particularly significant report (Mandated by Section 5(a)(6) and (7) of the Act)]      5
      INVESTIGATIONS                                                                         6
      ~EGIS~ATIVE AND REGU~ATORY REVIE~S                                                     6

AUDIT REPORTS OVER SIX MONTHS             O~D                                                9

      CORRECTIVE ACTION NOT COMP~ETED [including an identification of each
      significant recommendation described in previous semiannual reports on which
      corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)] .... 9

      CORRECTIVE ACTION          COMP~ETED                                                   9
       MANAGEMENT DECISION NOT MADE [including a summary of each audit
       report issued before the commencement of the reporting period for which no
       management decision has been made by the end of the reporting period (including
       the date and title of each such report), an explanation of the reasons such a
       management decision has not been made, and statement concerning the desired
       timetable for achieving a management decision on each such report (Mandated by
       Section 5(a)(10) of the Act)]                                                      9

SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                           9

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning information or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                      9

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(aY(II) of the Act)]                         9

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                             10

CURRENT AUDITS                                                                           10

GAO LIAISON                                                                              13

STRATEGIC PLAN                                                                           14

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                           19

TABLE 1-- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                            20

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)      21




                                             11
                   INDEX OF IG ACT REPORTING
                         REQUIREMENTS

Section 5(a)(1)                                     1

Section 5(a) (2)                                    1

Section 5(a)(3)                                     9

Section 5(a)(4)                                ~    9

Section 5(a)(5)                                     9

Section 5(a)(6)                                     5

Section 5(a)(7)                                     5

Section 5(a)(8)                                    20

Section 5(a)(9)                                    21

Section 5(a)(lO)                                    9

Section 5(a)(II)                                    9

Section 5(a)(12)                                   10




                              111
                       SUMMARY OF OIG ACTMTIES


AUDITS

        The primary objectives of the Office of the Inspector General (OIG) of the Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency
and effectiveness in the administration and operation of the Commission and to protect against
fraud, waste, and abuse. This reporting period's OIG audit activities which are listed below
reflect these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 10.)

       Review of Enforcement Information Requirements. The objectives of this review are to
       determine what the information needs of all levels in the Division of Enforcement are,
       whether the information needs are being met, and if the required information can be
       created, stored, and retrieved in a more effective and efficient manner. (For additional
       details, see page 10.)

       Review of Agency Compliance with GPRA. The Government Performance and Results
       Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare
       annual plans setting performance goals, and report annually on actual performance
       compared to goals. The frrst report was prepared in March 2000. The objective of this
       review is to determine how effectively the Commission is complying with GPRA' s
       terms. This will include an examination of the performance measures devised by the
       Commission and the systems used for gathering the data to report on those performance
       measures. (For additional details, see page 12.)

       Review of CFTC's Civil Monetary Penalties Collection Program. The Debt Collection
       Act of 1982 and the Debt Collection Improvement Act of 1996 (DCIA) direct Federal
       agencies to collect debts owed to the United States. The objective of this review is to
       verify total outstanding debts owed to the Commission, examine the Commission's
       procedures for collecting outstanding debts, determine Commission's compliance with
       the DCIA and recommend improvements, if necessary, to the debt collection process.
       (For additional details, see page 13.)



                                                1
Completed Audits

       The following audit has been completed during this reporting period.

       Audit of Compliance with the Federal Managers' Financial Integrity Act. In support of
       OMB Circular A-123 (Revised), the Inspector General evaluated, provided technical
       assistance, and advised the agency head as to whether the agency's review and
       evaluation process was conducted in accordance with the circular's requirements. (For
       additional details, see page 5.)

INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General
may receive and investigate complaints or information from the Commission's employees
concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial
and specific danger to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. The OIG
opened one investigation during the reporting period and completed one investigation. No
investigations remained open at the end of the period. (See the section on investigations
beginning on page 6.)

LEGISLATIVE AND REGULATORY REVIEWS

        The OIG reviews proposed and final CFTC regulations and legislation and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study
or data analysis a clear link between the proposed solution and the identified problem(s); (3)
has specified clearly the means to effectively and efficiently enforce the proposal; (4) has
assessed the likely efficiency and effectiveness of alternative solutions; (5) can reasonably
document that the proposal will yield positive net benefits over the long term; and (6) has met
the requirements of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives. (For more detailed descriptions of these
reviews, see the section on legislative and regulatory reviews beginning on page 6.)




                                                2
   Regulations reviewed during this period include:

   •   Relevant Considerations for Default Judgements; and

   •   Proposed New Regulations for the Futures Industry.

Legislative Activities

     The Inspector General continues to be heavily involved in legislative activities as a
member of the IG's Legislation Committee. Congressional staff and, in some instances,
members were briefed about the various IG issues.



                             OIG RESPONSIBILITIES


        The Office of the Inspector General in the Commodity Futures Trading Commission
was created in accordance with the Inspector General Act of 1978 (P. L. 95-452), as amended
by the Inspector General Act Amendments of 1988 (P.L. 100-504). The OIG was established
to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and to detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and, where necessary, investigations relating to the
           administration of CFTC programs and operations;

       •   Review existing and proposed legislation and regulations and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

      Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's efforts have been focused on the review of legislative and regulatory proposals and the
monitoring of internal CFTC operations.




                                               3
                                      OIG RESOURCES


        The OIG consists of the Inspector General, two professional staff members, and a
secretary. All positions have been ruled since January 2, 2000. The present Inspector General
assumed his position on October 7, 1990.

       The OIG, on December 4, 1989, signed a Memorandum of Understanding with the
Office of General Counsel (OGC). This Memorandum details the procedures that will be used
to provide the OIG with OGC legal services. An aGC staff member has been assigned to
provide such services to the OIG on an as-needed basis.



                  CFTC PROGRAMS AND OPERATIONS


        The CFTC was established in 1974 as an independent agency to regulate commodity
futures and options trading in the United States. The CFTC is headquartered in Washington,
D.C., with additional offices in Chicago, New York, Kansas City, Los Angeles, and
Minneapolis.

        The basic objectives of the CFTC are to prevent manipulation of the markets, abusive
trade practices, and fraudulent activities; to maintain effective oversight of the markets and
self-regulatory organizations; and to enforce the Commodity Exchange Act and Commission
rules without hindering the futures markets' provision of price discovery and risk shifting
services. The CFTC regulates the futures activities of brokerage firms, salespersons, floor
brokers, floor traders, commodity pool operators, commodity trading advisors, introducing
brokers, and leverage transaction merchants. In addition, the agency ensures the effective
enforcement of exchange rules, reviews the terms and conditions of futures contracts and the
registration of firms and individuals that provide advice or handle customer funds, and
oversees the activities of the National Futures Association.




                                               4
                                   COMPLETED WORK


AUDITS

        The OIG is required to conduct, supervise and coordinate audits of CFTC programs
and operations and to ensure that the audits are conducted in accordance with generally
accepted government auditing standards. The OIG is also required to recommend changes to
existing and proposed CFTC programs and operations to promote economy, efficiency, and
effectiveness and to prevent and detect fraud and abuse.

          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations,
              and policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit report has been issued during the reporting period.

1.        Audit of Compliance with the Federal Managers' Financial Integrity Act

Objectives.

       In support of OMB Circular A-123 (Revised), the Inspector General evaluates, provides
technical assistance, and advises the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Status.

        The OIG reviewed all of the draft internal control reviews produced by the Commission
and provided comments to the originating divisions. The OIG reported the results of its review
of the final submissions to the Chairman in its annual assurance letters. The OIG offered its
services to the CFTC Internal Control Committee as advisor and consultant on conducting and
reporting on internal control reviews.




                                                   5
INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General
may received and investigate complaints or information from the Commission's employees
concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial
and specific danger to the public health and. safety.

        There were no investigations pending as of the beginning of the reporting period. The
OIG opened one investigation during the reporting period and closed one investigation. No
investigations remained open at the end of the period.

        On January 2, 2001, the OIG received an anonymous complaint alleging that the
outgoing Chairman planned to reorganize two divisions of the Commission and to fill certain
new positions with his personal assistants. The outgoing Chairman, on January 18, 2001, said
that he had decided to take no part in the selection of people for the slots created by the
reorganization. The Acting Chairman, on January 22, 2001, confirmed that selections would
be his alone. Accordingly, this investigation was closed.

LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a) (2) of the Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The DIG also reviews exchange rule proposals and
changes.

        The OIG has notified the responsible Division as to any concerns with draft and final
documents for the legislation, rules or investigations listed below. Formal comments were not
filed with the Commission. A summary of the principal legislation, regulations and
investigations reviewed and the DIG review results follows.

RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

1. Petition for exemption from Dual Trading Ban of the Chicago Mercantile Exchange
   (CME).

Summary of Action

       The CME sought exemption for several of its contracts from the dual trading
prohibitions.




                                               6
OIG Review

       The OIG asked various questions to which staff responded. Subsequent legislation
superceded the petitions.

2. Petition for exemption from Dual Trading Ban of the Chicago Board of Trade (CBT).

Summary of Action

       The CBT sought exemption for several of its contracts from the dual trading
prohibitions .

OIG Review

        The OIG asked questions and raised issues to which staff responded. Subsequent
legislation superceded the petitions.

3. Proposed Amendments regarding Performance Data and Disclosure for Commodity
   Trading Advisers (CTA).

Summary of Action

       Staff proposed amendments that would require rate of return performance measures
used by a CTA to be computed by dividing net performance by the nominal account size.
Previously the CFTC had required that actual deposited funds be used in the denominator.

OIG Review

       The OIG urged staff to consider using a focus group to determine the relative value of
disclosure of the two methods. CFTC action on these measures is temporarily stayed.

4. Proposed Amendment to CFTC Rule 1.41.

Summary of Action

       CFTC staff proposed an amendment to Rule 1.41 permitting contract markets to place
new rules and rule amendments into effect on the business day following their receipt by the
CFTC subject to certain conditions.

OIG Review

       OIG supported the staff action, which has bee~ superceded by subsequent legislation.




                                               7
5. Proposed Consumer Advisory about Internet Websites' Promotion of Trading
Systems.

Summary of Action

       The Division of Enforcement recommended that the Commission issue a consumer
advisory urging the public to use caution when evaluating performance claims made by
promoters of trading systems and advisory services.

OIG Review

       OIG raised certain questions which were resolved, and the Commission issued the
advisory.

RULE REVIEWS INITIATED THIS REPORTING PERIOD

1. Relevant Considerations for Default Judgements.

Summary of Action

      A question has been raised about the appropriate circumstances for the entry of default
judgements.

OIG Review

       OIG concluded its review of the issue and made recommendations.

2. Proposed New Regulations for the Futures Industry.

Summary of Action

        CFTC staff proposed new regulations that increase legal certainty for derivative
transactions and provide alternative regulatory systems depending on the commodity traded and
the nature of the participant.

OIG Review

       OIG reviewed the proposals and made comments. Legislation superceded much of the
proposals.

Legislative Activities

       The IG continues to be involved in legislative activities as a member of the IG S
                                                                                    I


Legislative Committee. Contact has been made with congressional staff on various IG issues.


                                               8
              AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED

       There were no instances of audit reports over six months old where corrective action
had not been completed.

CORRECTIVE ACTION COMPLETED

       There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

MANAGEMENT DECISION NOT MADE

       There were no instances of reports issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.



               SUMMARY OF MATTERS REFERRED TO
                  PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period



               SUMMARY OF EACH REPORT MADE TO
                     THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided.



                  REVISED MANAGEMENT DECISIONS

       No management decisions were revised during the reporting period.



                                               9
                   INSPECTOR GENERAL DISAGREEMENT

      The Inspector General does not disagree with any management decisions on OIG
recommendations.


                                     CURRENT AUDITS

           The audit agenda and priorities for the OIG are determined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability of the organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits of a review on the
               efficiency or effectiveness of CFTC programs and operations;

           •   Management priorities and improvements that may be possible;

           •   Results of audits of CFTC programs and operations by other Federal agencies; and

           •   Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary of progress for each audit which has not yet been
completed is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.         Review of Enforcement Information Requirements

Objectives.

        The mission of the Division of Enforcement is to investigate and prosecute fairly and
effectively violations of the Commodity Exchange Act and the Commission s regulations in
                                                                                 I

order to safeguard the integrity of U.s. futures and options markets and to protect market
participants and futures and options customers. In the course of its activities, the division,


                                                   10
with headquarters and regional components, plans and follows an often complex course to
achieve its objectives and receives and creates a huge volume of documents which must be
logically stored and regularly accessed. To support the accomplishment of these tasks, the
division is relying on a collection of very old manual and automated systems to track the
progress of activities and to store and retrieve documents. The objectives of this review are to
determine what the information needs of all levels in the division are, whether the information
needs are being met, and if the required information can be created, stored, and retrieved in a
more effective and efficient manner.

Status.

        The joint OIG/Enforcement team produced extensive and detailed narrative flow charts
of the current operational and administrative functions and processes of the Division of
Enforcement and delivered them to the Division of Enforcement and the Office of Information
Resources Management (OIRM). These products were designed to inform the analysts in
OIRM of the inner workings of the Division of Enforcement and to serve as the base on which
the information requirements of the Division of Enforcement will be defined.

        In September 1997, in a joint meeting of representatives of the Division of
Enforcement, the OIG, and OIRM, the principals made commitments of six staff years of
effort from OIRM and approximately three staff years of effort from Enforcement to define the
system requirements of Enforcement.

        The Division of Enforcement and OIRM agreed that the first priority was the
development of a system to track documents in the Division in accordance with the Division's
Enforcement Procedure Number 3. The second phase was devoted to installing a system to
track production within the Division and to report that information in the required formats to
management of the Division. Phase three will concentrate on moving the functions of the
attorneys and investigators from paper to computer screen and using the resulting information
to improve the tracking of productivity information and the sharing of information within the
Division.

       The fmal version of the first phase of what is now being called "the Enforcement
Modernization Project" was delivered to the Division of Enforcement in May 1998. This
Enforcement Procedure Number 3 System is now being used at all locations of the Division.
The second phase, a system which produces the monthly status reports from all parts of the
Division and maintains on screen data on the current status of all matters within the Division,
has been completed. Training in the use of this system was completed during March 1999.

         Phase Three, designed to present the Enforcement Division with a case management,
litigation support, and document management system, to tie together the first two systems with
this new system, and to automate as many of the remaining Enforcement Division processes as
possible, began with a survey of appropriate off-the-shelf systems and an investigation of
currently available software and hardware which may meet the bulk of identified needs.
Difficulties in maintaining contractor resource levels led to delays in the pursuit of Phase 3. A

                                                11
team consisting of staff from the Division of Enforcement, OIRM, and contractor personnel
was engaged in a review of available off-the-shelf case management, litigation support, and
document management software from the beginning of Calendar Year 2000.

   As a result of this review of available off-the-shelf software, the Division of Enforcement
and OIRM developed a list of requirements. A Request for Proposals reflecting those
requirements was issued on July 19, 2000. None of the responses received fully met the
requirements specified in the Request for Proposals.

    The Division of Enforcement and OIRM are again reviewing the program's requirements
and developing a listing of those requirements. Updated decisions on funding levels for
systems to meet those requirements are expected by June 2001. A contract is expected to be
let as a result of this effort during the first quarter of FY 2002.

2.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting performance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This will include an examination of the performance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

        In response to Congressional interest, the OIG consulted with and advised the
Commission's operating divisions concerning the GPRA requirements. The OIG reviewed the
Commission's FY 2001 and FY 2002 Annual Performance Plans before submission to
Congress and reviewed the FY 1999 and FY 2000 Annual Performance Reports. However,
new legislation will require the Commission to undertake substantial regulatory reform which
will challenge each operating division to redefine its service goals under GRPA. In light of this
fundamental structural change, the OIG has participated in a number of discussions on how best
to reflect the agency's new regulatory structure in defining goals and measures under GPRA.
In conjunction with other federal agencies' Inspectors General, the OIG is participating in the
development of "best practices" appropriate for this agency's compliance with the requirements
of GPRA.




                                                12
3.        Review of CITC's Civil Monetary Penalties Collection Program

Objective.

       The Debt Collection Act of 1982 and the Debt Collection Improvement Act of 1996
(DeIA) direct Federal agencies to collect debts owed to the United States. During Fiscal Year
1999, forty-one civil monetary penalties totaling $42,743,240 assessed by the Commission in
administrative proceedings and/or federal court orders were due. In fiscal year 2000, the
comparable figures are fifty-four civil monetary penalties totaling $18,209,130. All civil
monetary penalties collected by the Commission are subsequently transferred to the U.S.
Treasury.

       The objectives of this review are to verify the accuracy of the accounting for civil
monetary penalties, examine the Commission's procedures for collecting outstanding debts,
determine Commission's compliance with the DCIA, and recommend improvements, if
necessary, to the debt collection process.

Status.

       The OIG has completed the field work portion of this audit of the Civil Monetary
Penalties Collection Program and is now in the process of assembling the work papers and
preparing a draft report for circulation. The final report is expected to be issued in May 2001.



                                     GAO LIAISON


        The OIG is charged with providing policy direction for, and conducting, supervising,
and coordinating audits and investigations relating to CFTC programs and operations. In
addition, the OIG is required to recommend policies for, and conduct, supervise, and
coordinate with other Federal agencies, state and local Governmental agencies, and
nongovernmental entities, audits, investigations, and evaluations regarding the economy,
efficiency, and effectiveness of CFTC programs and operations.

        GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each
audit and the methods of reaching the goals so as to minimize the requirements placed on
CFTC resources.




                                               13
                         STRATEGIC PLAN
                             FOR THE
                 OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

      The Office of the Inspector General (OIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (P.L.
95-452), as amended by the Inspector General Act Amendments of 1988 (P.L. 100-504). The
OIG was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and to detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation and regulations and to make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and
effectiveness in the administration and operation of the Commission and to protect against
fraud and abuse.

       The key to effectively and efficiently managing the CFTC is information. Top level
managers and decision makers require a steady stream of organized data on the effects of their
policy decisions and resource allocations on the operations of the Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects of their decision so they can determine if the change is


                                                14
in the direction and of the magnitude predicted. In the absence of such information, top level
managers cannot adequately perform their jobs.

        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office of Proceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of General Counsel where proposed Commission
opinions are drafted; and appeals are decided by the Commission with the paperwork being
handled by the Office of the Secretariat. Each office involved in the process had a separate
tracking system without ties to the tracking systems in the offices preceding them or following
them in the process. Each office treated the case as if it were brand new to the Commission
when they received it. As a result, there was no provision for tracking information across
organizational lines. If the Chairman wanted to know how much time was spent on the
average reparations case of a particular description at each stage in the process, that
information was unavailable without an extensive expenditure of manual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job of tracking
resources expended. It can determine 'how much staff time and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with
particular projects. What a program manager may have great difficulty doing, however, is
telling a decision maker that for a specific level or increase in resources, the program manager
will deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

        To increase the efficiency and the effectiveness of the management of CFTC programs
and operations, the OIG will, in addition to the conduct of mandatory audits, concentrate its
audit resources on the identification of information voids and the lack of continuity in the flow
of information across organizational lines from the beginning of a process until its conclusion.
The OIG will recommend the implementation of any system improvements where the benefits
of implementing the change exceed the costs.

       In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has been following the Commission's development of measures and
systems of measurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to
monitoring-agency performance to insure that the data is accurately gathered and that the
measures reported are the best available for demonstrating program performance.



                                                15
INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General
may receive and investigate complaints or information from the Commission s employees
                                                                              I

concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, gross waste of funds, abuse of authority or a substantial and
specific danger to the public health and safety.

       The OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program
has resulted in only a handful of investigations per year. This strategy was followed because
the OIG believed that an independent regulatory agency such as CFTC without grant money or
substantial contracts to award was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the OIG, a 24 hour hotline was
established in February 1993 to receive complaints. The hotline s existence is publicized in the
                                                                  I


agency-wide telephone book and in this semiannual report.                             .

       Because of the reactive nature of the OIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic regulatory agency, the OIG
reviews proposed and final CFTC regulations and legislation and selected exchange rules using
five basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the
means to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency
and effectiveness of alternative solutions; (5) can reasonably document that the proposal will
yield positive net benefits over the long term; and (6) has met the requirements of the
Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently 'its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

         Because the OIG does not initiate legislation or, generally, regulations, the OIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                16
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on insuring that the
Chairman, the Commissioners, and program managers have timely, useful information on the
progress of CFTC' s programs in meeting their goals and objectives. For example, emphasis
will be placed on determining whether all managerial levels engaged in a process can track the
progress of their various programs. The tracking systems required in many, though not all,
programs will cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by an organization to gather information on its use of resources, the results of the
devotion of those resources (including definitions of measurements of accomplishment), and
the reporting of results and associated costs to the upper level managers in the Division and to
the Chairman and the Commissioners. Cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish
the priorities of the Commission. If any elements are lacking in the information systems, they
will be identified and improvements will be recommended if they can be implemented in a
cost/beneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The fIrst step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development of tracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG will devote resources to the audit of compliance
with the terms of agency contracts (such as, leases of space' in New York, Chicago, Los

                                                17
Angeles, and Washington, D.C.), the collection of funds (such as, compliance with the terms
of the Debt Collection Improvement Act of 1996 and the resultant Memorandum of
Understanding with Treasury), and agency compliance with Congressional mandates (such as,
the Government Performance and Results Act and the Government Information Security
Reform Act).

RESOURCES REQUIRED
        The OIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. Nine-tenths staff years of effort will be devoted over each of the next five years to the
compliance audits described above. The "Annual Audits" are expected to consume
approximately one-tenth staff year per year.




                                               18
                     CONTACTING THE OFFICE OF THE
                         INSPECTOR GENERAL


       The DIG is located at 1155 2pt Street, N.W., Washington, D.C. 20581. The
telephone number is (202)418-5110. The facsimile number is (202)418-5522. The hotline
number is (202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM,
Monday through Friday, except Federal holidays.




                                            19
                                                Table 1
                                   Reports Issued with Questioned Costs
                                    (October 1, 2000 - March 31, 2001)




                                                                         Dollar Value
                                                            Number        (Thousands)
                                                                     Questioned Unsupported

A. For which no management decision
   has been made by the commencement
   of the reporting period                                     0           0              0

B. Which were issued during the
   reporting period                                            0           0              0

   Subtotals (A + B)                                           0           0           0

C. For which a management decision
   was made during the reporting
   period                                                      0          0            0

   (i)      dollar value of
            disallowed costs                                   0          0

   ( ii )   dollar value of
            costs not disallowed                               0           0

D. For which no management decision
   has been made by the end of the
   reporting period                                            0           0          0




                                                20
                                              Table 2
                                 Reports Issued with Recommendations
                                   That Funds be Put to Better Use
                                  (October 1, 2000 - March 31, 2001)




                                                                       Dollar Value
                                                          Number       (Thousands)


A. For which no management decision
   has been made by the commencement
   of the reporting period                                  0             0

B. Which were issued during the
   reporting period                                         0             0

     Subtotals (A + B)                                      0            0

c.   For which a management decision
     was made during the reporting
     period                                                 0            0

     (i)      dollar value of
              recommendations that
              were agreed to by management                  0             0

     ( ii )   dollar value of
              recommendations that
              were not agreed to by
              management                                    0             0

D. For which no management decision
   has been made by the end of the
   reporting period                                         0             0




                                              21
        The InspectorGeneral
        needsyourhelpto                 -.

        assure the integrity of
        CFTC's programs.



Report FRAUD, WASTE
 or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-551 0
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
        Washington, D.C. 20581
